                      Department of Veterans Affairs
                          Office of Inspector General




                      Healthcare Inspection

               Vet Center Contracted Care
                    Program Review




Report No. 12-00040-268                                      August 16, 2013
                            VA Office of Inspector General
                               Washington, DC 20420
                                                                      Vet Center Contracted Care Program Review



                                                   Contents
                                                                                                                    Page

Executive Summary .............................................................................................. i

Introduction ..........................................................................................................1
   Purpose ...............................................................................................................1
   Background .........................................................................................................1
   Scope and Methodology .....................................................................................3

Review Results .....................................................................................................6
   Issue 1: Client Documentation ............................................................................6
   Issue 2: Annual Onsite Quality Reviews .............................................................9
   Issue 3: Contract Administration and Oversight ............................................. 10

Conclusions ....................................................................................................... 11

Recommendations ............................................................................................ 11

Appendixes
   A. Randomized RCS Vet Center Sites............................................................ 13
   B. Under Secretary for Health Comments ...................................................... 14
   C. OIG Contact and Staff Acknowledgments .................................................. 25
   D. Report Distribution...................................................................................... 26




VA Office of Inspector General
                                              Vet Center Contracted Care Program Review



                                 Executive Summary
The VA Office of Inspector General (OIG) Office of Healthcare Inspections
completed an inspection of the Readjustment Counseling Service’s (RCS) Vet
Center Contract for Fee Program, which ensures the provision of counseling
services to eligible veterans who do not have access to counseling services at
Vet Centers. The purpose of our inspection was to assess if Vet Center
contracted counseling services were managed in accordance with Veterans
Health Administration (VHA) Handbook 1500.01.

The objectives were to: (1) determine if VA required contractors to complete
specific components of client documentation in accordance with RCS policy,
(2) determine if managers provided appropriate oversight for the contracted
clinicians’ required client documentation, (3) assess the management and
oversight of contracted care based on compliance with the contract, and
(4) determine if invoicing practices complied with RCS contract requirements.
We found that referrals to contract providers were not consistently implemented
by RCS staff and identified opportunities for improvement in the Contract for Fee
Program.

We found that contractors provided the required documents for review and
approval by the Team Leaders (TLs) prior to the reauthorization of additional
sessions in 76.4 percent of the client records. The TLs also authorized additional
counseling sessions with updated treatment plans in 25.8, 31.0, and 30.0 percent
of the records reviewed during each respective quarter. We estimated that only
13.7 percent had the applicable treatment plans submitted in accordance with
VHA policy to the TLs during the study period.

We found that the extension approval process for 52.5 percent of the existing
clients occurred more than 30 days after the 1-year eligibility date. We also
found that 70.0 percent of the TLs completed an annual onsite quality review of
the respective contract provider.

We found a 71.0 percent RCS compliance rate for complete and signed contracts
due to missing elements in the statement of work and the lack of a contract for
counseling services. The terms and conditions of the contracts need to be
consistent with VHA policy, and TLs must maintain a copy of the complete
contract with all relevant provisions prescribed by RCS Guidelines and
Instructions. Additionally, we noted that 73.4 percent of the authorization forms
with the required signature and date and 53.1 percent were signed prior to the
session date.

We recommended that the Under Secretary for Health, in conjunction with the
RCS Chief Officer:


VA Office of Inspector General                                                        i
                                             Vet Center Contracted Care Program Review


   • Ensure that Team Leaders receive, review, and approve psychosocial
     assessments and counseling plans prior to authorizing contracted
     counseling services.

   • Ensure that Team Leaders conduct and document client assessments
     after 1 year of eligibility for contracted client services.

   • Ensure that Team Leaders conduct annual onsite quality reviews for
     contractors who participate in the Contract for Fee Program.

   • Ensure that Readjustment Counseling Service uses a standard template
     that includes terms and conditions that are consistent with those in the
     Readjustment Counseling Service policy.

   • Ensure that Readjustment Counseling Service maintains and monitors
     counseling service contracts in accordance with Readjustment Counseling
     Service and Veterans Health Administration policy.

   • Ensure that Team Leaders authorize contracted counseling services in
     accordance with Readjustment Counseling Service and Veterans Health
     Administration policy.

Comments

The Under Secretary for Health concurred with our findings and
recommendations. See Appendix B (pages 14–24) for the full text of his
comments. We will follow up on the corrective actions until all recommendations
have been fully implemented.




                                              JOHN D. DAIGH, JR., M.D.
                                             Assistant Inspector General for
                                                 Healthcare Inspections




VA Office of Inspector General                                                       ii
                                                                  Vet Center Contracted Care Program Review



                                            Introduction
Purpose
The purpose of our inspection was to assess if Vet Center contracted counseling
services were managed in accordance with Veterans Health Administration
(VHA) policy. 1 The objectives were to: (1) determine if VA required contractors to
complete specific components of client documentation in accordance with
Readjustment Counseling Service (RCS) policy, (2) determine if managers
provided appropriate oversight for the contracted clinicians’ required client
documentation, (3) assess the management and oversight of contracted care
based on compliance with the contract, and (4) determine if invoicing practices
complied with RCS contract requirements.

Background
In 1981, VA initiated a new organizational element, the RCS, to oversee Vet
Centers in the provision of readjustment counseling services. The goal of the
RCS Vet Center program is to provide a broad range of counseling, outreach,
and referral services to eligible veterans needing post-war readjustment to
civilian life. This includes assistance with basic needs, therapeutic counseling for
drug and alcohol abuse, and treatment for military sexual trauma and
Post-Traumatic Stress Disorder (PTSD).

RCS has the authority to contract with private clinicians to provide counseling
services to eligible veterans. 2 RCS Vet Center program officials determine the
locations for these services. The primary criterion for consideration is the level of
unmet needs among the eligible veteran population where existing Vet Centers
are not capable of furnishing the needed services due to geographical distances.

RCS contract programs are designed to improve rural veterans’ access to
counseling for military-related social and psychological readjustment problems.
Of the 300 Vet Centers, 67 have contracts with 115 private providers for
counseling services. 3 At each Vet Center, the Team Leader (TL) is the
contracting officer’s technical representative (COTR) 4 and local manager.
Contract administration is the responsibility of the TL and includes authorizing



1
   VHA Handbook 1500.01, Readjustment Counseling Services (RCS) Vet Center Program: Guidelines and
Instructions for Vet Center Contract for Fee Program. September 8, 2010.
2
  38 U.S.C., Part II, Chap. 17, Subchap. II, Sec. 1712A - Eligibility for readjustment counseling and related mental
health services.
3
  RCSnet data query performed on April 24, 2012.
4
  A business communications liaison between the federal government and a private contractor.


VA Office of Inspector General                                                                                    1
                                                 Vet Center Contracted Care Program Review


client referrals and number of treatment modalities and performing verifications
that veterans received services as invoiced. 5

The RCS contracts must describe the nature of services provided, frequency of
sessions, location, and timeframe for providing services. Contracts can also
address special requirements, which may differ among individual Vet Centers.
Consistent with VHA policy, the contracts authorize three initial visits for the
completion of a clinical assessment that includes the psychosocial assessment
and military history, and development of a corresponding treatment plan for
counseling care. Contract providers must submit clinical assessments and
treatment plans that adhere to the standard protocols used internally by Vet
Centers. After review of the treatment plan, the TL can authorize up to 15 visits
with the contract provider.

RCS staff interview clients to ensure their eligibility for services before they refer
clients to a contract provider. These clients are considered Vet Center clients
even if they are referred to a contract provider for counseling services. Referrals
to readjustment contract providers may only be made by qualified Vet Center or
RCS staff, such as: (1) COTR; (2) other Vet Center counselors designated by the
COTR; and/or (3) the Regional Manager (RM), Deputy RM, and the Associate
RM for Counseling.

The treatment modality is based upon the provider’s treatment plan. The
modality options include individual, group, family, or substance abuse
counseling. Quality indicators in the treatment plan describe clinically desired
cognitive, behavioral, or emotional changes, which are anticipated as treatment
progresses.

Authorizations are generated in RCSnet utilizing the electronic
VA Form 10-5565b, Readjustment Counseling Services Contract Services
Authorization, which documents the number and type of visits. If additional visits
are needed, the contract provider submits a required treatment plan,
documenting the rationale, to the TL for review and approval.

The TL also conducts a required case review when the client has received
contract counseling services for more than a year. This involves a client
interview, in person or by telephone, and an updated psychosocial assessment
to assess the continuing need for readjustment counseling. The RM or designee
must approve all extension requests for contract counseling and document this in
the client’s electronic record.


5
    VHA Handbook 1500.01.



VA Office of Inspector General                                                          2
                                                                   Vet Center Contracted Care Program Review


To ensure that services are in accordance with RCS policy, the TL conducts an
annual onsite quality review of clinical and administrative operations for each
contract program assigned to the respective Vet Center. Quality reviews provide
TLs the opportunity to review the operational processes of the contractor and
conduct a detailed review of the clients’ files to ensure compliance with RCS
policy. The TL utilizes standardized criteria developed by RCS when conducting
onsite quality reviews; these include the timeliness and completeness of clinical
assessments and treatment plans. 6

When the TL finds a deficiency, the criteria element is documented as “Needing
Development.” The TL is required to document a corrective action plan, which is
then reviewed and approved by the RM or designee. Deficiencies are logged
into RCSnet and then tracked and trended until resolved.

Scope and Methodology
We conducted pilot reviews at two Vet Centers 7 to test our review plans and gain
insight of the Contract for Fee program at an operational level during the week of
February 6, 2012.     We also learned about electronic data management
processes and systems at the RCSnet data warehouse during the week of March
18, 2012.

We performed onsite inspections for 27 of a random sample of 30 Vet Centers
during the weeks of June 11 and 18, 2012, and reviewed psychosocial
assessments and initial treatment plans for clients who received contracted
counseling services during the study period from April 1, 2011, through
March 31, 2012. For the three remaining sampled Vet Centers, we performed
remote reviews of contract counseling documentation and conducted telephone
interviews with their respective TLs due to their low volume of clients.

We reviewed VHA policy related to the RCS administration and oversight of the
Contract for Fee Program and interviewed senior managers. We reviewed
documentation from RCSnet, 8 which included client demographics, assessments,


6
  VHA Handbook 1500.01, Readjustment Counseling Services (RCS) Vet Center Program, Guidelines and
Instructions for Vet Center Administration, Appendix 13: Readjustment Counseling Service Contract Fee Quality
Review Form, September 8, 2010.
7
  Harrisburg and Tampa Vet Centers.
8
  RCSnet is a web-based application that serves as a repository for clinical, demographic, and administrative data for
eligible Veterans and their family members. RCSnet creates an electronic system of records that enhances the
delivery of RCS services to Veterans providing counselors the ability to access Veteran client records from any Vet
Center location. RCSnet provides numerous tools to VHA RCS management and staff to track workload and to help
them manage the day to day operation of their Vet Centers. The system is designed with restricted access through
use of electronic authentication methods and controlled by role-based permissions to Vet Center information
ensuring the confidentiality of Veteran records to comply with the mandated separate system of records.


VA Office of Inspector General                                                                                      3
                                                               Vet Center Contracted Care Program Review


authorizations, extension of contracted counseling services, and contractor
deficiency reporting.

We reviewed documentation for the extension of contracted services for clients
who had received contracted counseling services for at least 1 year during our
study period. We reviewed the Quality Review Reports for onsite reviews
conducted by the respective TLs. We gave a grace period of 30 days before and
after the study to allow the TLs the opportunity to complete the annual review.

We reviewed contracts and supporting documents in the VA Electronic Contract
Management System (eCMS) to assess for compliance with RCS directives,
consistency of invoices with statements of work and price schedules, and proper
authorizations of therapeutic sessions. We also reviewed completed VA Forms
10-5565b, Readjustment Counseling Services Contract Services Authorization,
to determine if TLs had completed the authorization before counseling services
were provided and evaluated service VA invoice payment records in the
Document Management System (DMS). 9,10

Population and Sample Design

The two pilot sites were removed from the original list of 67 Vet Centers that
utilized contracted counseling services. Using a two-stage sample design, we
first selected a random sample of 30 Vet Centers. From each of these 30 Vet
Centers, we then randomly selected 30 clients who utilized at least one
contracted counseling service during the study period. For the three Vet Centers
with 30 or fewer clients, we reviewed all 16 of their clients’ records remotely. 11
This resulted in a statistical sample of 650 clients.

Additionally, we randomly selected one contractor from each of the 30 sampled
Vet Centers to evaluate VA’s oversight of the Contract for Fee Program. From
each of the 30 contractors, we then randomly selected 50 client sessions for
contractual components review. For the contractors with less than 50 client
sessions, we reviewed all of their client sessions. This resulted in a statistical
sample of 1,318 client sessions.




9
  The VA Electronic Contract Management System (eCMS) is a VA intranet tool used by VA Acquisition staff to
create and manage VA acquisitions and contracts. The eCMS is used to manage the full acquisition lifecycle,
including pre-award solicitations, awarded contracts, and post-award modifications and contract monitoring.
10
   The VA Financial Services Center utilizes a records management system called Document Management System
(DMS) to image, store, and retrieve VA financial documents. DMS interfaces with VA financial and administrative
systems to provide the rapid retrieval of VA payment records based on customer-defined searches.
11
   Casper, WY; Kalispell, MT; and Salt Lake City, UT Vet Centers.


VA Office of Inspector General                                                                               4
                                                           Vet Center Contracted Care Program Review


Statistical Analysis

We estimated the VA compliance rates for each of the review criteria. We used
Horvitz-Thompson sampling weights (the reciprocals of sampling probabilities) to
account for unequal probability sampling and the Taylor expansion method to
obtain the sampling errors for the estimates. We set the desired levels at 90
percent.

We presented 95 percent confidence intervals (95% CI) for the true values
(parameters) of the study population. A confidence interval gives an estimated
range of values (being calculated from a given set of sample data) that is likely to
include an unknown population parameter. The 95% CI indicates that among all
possible samples that we could have selected of the same size and design,
95 percent of the time the population parameter would have been included in the
computed intervals.

Percentages can take only non-negative values from 0 to 100, but their logits can
have unrestricted range so that the normal approximation can be used. Thus, we
calculated the confidence intervals for percentages on the logit scale and then
transformed them back to the original scale to ensure that the calculated
confidence intervals contained only the proper range of 0 to 100 percent.

All data analyses were performed using SAS statistical software. 12

We conducted the review in accordance with Quality Standards for Inspection
and Evaluation published by the Council of the Inspectors General on Integrity
and Efficiency.




12
     SAS Institute, Inc., Cary, NC. Version 9.3 (TS1M0).


VA Office of Inspector General                                                                    5
                                                                                  Vet Center Contracted Care Program Review



                                                     Review Results
Issue 1: Client Documentation

New Clients

For our review, we defined a new client as a veteran who began contracted
services during the study period. We evaluated TL reviews of applicable
assessments and authorizations of additional services after the initial
assessment period.

We found 181 new client referrals for contracted counseling services at 25 of the
30 Vet Centers. There were exceptions for certain indicators; therefore,
denominators may vary in the reported results. A summary of the results are
listed in Table 1.
Table 1. New Client Compliance Rates


                                                                                                Estimated VA Compliance
                                                   Number of Sampled Clients
          Compliance Measure                                                             95 Percent Confidence Interval Limits
                                                   Compliant          Total Number     Percent          Lower             Upper

 Clinical Assessments                                 148                   181         89.3            80.01             94.52
 Treatment Plans                                      149                   181         88.4            79.73             93.62
 Authorization of Additional
                                                      118                   157         76.4*           56.37             89.01
 Sessions
 Quality Indicators                                   135                   149         94.4            84.85             98.04
*This is statistically significantly lower than the 90 percent benchmark.


Clinical Assessments. We estimated that 89.3 percent of client records included
a completed psychosocial assessment, and we are 95 percent confident that the
true compliance rate is somewhere between 80.01 to 94.52 percent. Thus, the
RCS compliance rate was not statistically significantly different from the
90 percent benchmark.

Treatment Plans. We estimated that 88.4 percent (95% CI: 79.73–93.62) of
client records included a treatment plan for readjustment counseling. The RCS
compliance rate was not statistically significantly different from the 90 percent
benchmark.

Authorization of Additional Sessions. We estimated that in 76.4 percent
(95% CI: 56.37–89.01) of the client records, the contract provider submitted the
required documents for review and approval by the TL prior to the reauthorization
of additional sessions. The RCS compliance rate is statistically significantly
lower than the 90 percent threshold.



VA Office of Inspector General                                                                                                    6
                                                                             Vet Center Contracted Care Program Review


Quality Indicators. We found that 94.4 percent (95% CI: 84.85–98.04) of the
client records with treatment plans included quality indicators. The RCS
compliance rate was not statistically significantly different from the 90 percent
benchmark.

Existing Clients

For our review, we defined an existing client as a veteran whose contracted
counseling services began prior to and continued for one or more quarters.
Existing clients must have reauthorizations for contracted counseling care based
on review of submitted treatment plans prior to the beginning of each quarter. 13
Our study period of April 1, 2011, through March 31, 2012, included review of the
quarters which began July 2011, October 2011, and January 2012.

For our sample of 469 existing clients, we reviewed a total of 1,033 treatment
plans submitted during the 3 quarters to determine compliance with VHA policy.
The total number of quarterly treatment plans decreased to 329 and 235 during
the October 2011 and January 2012 quarters, respectively, as further sessions
for some sampled existing clients were not reauthorized. A summary of our
results by quarter is listed in Table 2.
Table 2. Treatment Plan Review by Quarter

                                                                                        Estimated VA Compliance
                                                       Number of Existing
                                                                                   95 Percent Confidence Interval Limits
                                                        Clients’ Treatment
                                                         Plans Reviewed
                                                                                Percent           Lower             Upper

                       Compliant                                79               25.8*            12.66            45.46
                       Non-compliant                            255              54.1             38.88            68.56
     July 2011         Cannot Be
                                                                135              20.1             10.13            36.03
                       Determined
                       Total                                    469              100.0             ----             ----
                       Compliant                                 75              31.0*            17.24            49.31
                       Non-compliant                            179              53.0             39.35            66.25
      October
       2011            Cannot Be
                                                                 75              15.9             6.67             33.45
                       Determined
                       Total                                    329              100.0             ----             ----
                       Compliant                                48               30.0*            16.00            48.97
                       Non-compliant                            89               44.2             31.77            57.33
      January
       2012            Cannot Be
                                                                 98              25.9             10.93            49.85
                       Determined
                       Total                                    235              100.0             ----              ----
*This is statistically significantly lower than the 90 percent benchmark.


Treatment Plans. We found that TLs authorized additional counseling sessions
prior to reviewing the documentation in 523 treatment plans. The compliance

13
     VHA Handbook 1500.01.


VA Office of Inspector General                                                                                              7
                                                                                Vet Center Contracted Care Program Review


rates were 25.8 (95% CI: 12.66–45.46), 31.0 (95% CI: 17.24–49.31), and 30.0
(95% CI: 16.00–48.97) percent, respectively, for the 3 quarters reviewed, and
these were statistically significantly lower than the 90 percent threshold. In the
review of treatment plans for evidence of documentation to support the
authorization of additional counseling sessions, we found 308 treatment plans
with incomplete documentation such as missing dates and approval signatures.
Thus, we were unable to determine if these treatment plans were approved by
the TLs.

Based on the sample of 469 clients reviewed, we estimated that only
13.7 percent (95% CI: 7.95-22.46), had treatment plans completed and submitted
to the TLs as required for the study period. For example, if a client received care
from July 2011 for 3 quarters, then 3 treatment plans were required to be
submitted to the TL for review; likewise, if a client received care for 1 quarter,
then 1 treatment plan should have been submitted to the TL. All treatment plans
also had to be dated and signed by the COTR in order to be deemed compliant.
Our results over the entire study period of 3 quarters are listed in Table 3.
Table 3. Existing Clients’ Treatment Plans Over 3 Review Quarters

       Existing Clients’ Treatment Plans                                         Estimated VA Compliance
          Received by Team Leaders                                          95 Percent Confidence Interval Limits

                              Number of Clients                   Percent                  Lower                    Upper

    Compliant                          56                          13.7*                    7.95                    22.46
   Non-compliant                      301                          69.7                    57.38                    79.72
    Cannot Be                         112
                                                                   16.6                    8.01                     31.38
    Determined
       Total                          469                         100.0                     ----                     ----
*This is statistically significantly lower than the 90 percent benchmark.

Additionally, at three Vet Centers, we found that although the treatment plans
had different dates, the documentation appeared to have been copied and
pasted from previous quarters.

Extensions. We found 340 clients at the 29 Vet Centers who received
counseling beyond 1 year. We assessed whether the TL interviewed the client
and assessed the need for continued readjustment counseling. We also
accessed RCSnet records to determine the date the extensions were approved.
We reported our findings in increments of 5 days for approval times between
1 and 30 days. The extension approval process occurred as early as 111 days
prior to and as late as 1,289 days after the expiration date. A summary of our
results is listed in Table 4.




VA Office of Inspector General                                                                                              8
                                                       Vet Center Contracted Care Program Review


Table 4. Extension Approval Times

                                                               Estimated VA Compliance
                                 Extension Approvals      95 Percent Confidence Interval Limits
        Time Periods
                                      Number           Percent            Lower              Upper

 Prior to Expiration Date                41              9.1              4.85              16.36
 On Expiration Date                      21              6.0              3.34              10.63
 1 to 5 Days After                       24              5.2              2.20              11.64
 6 to 10 Days After                      17              4.2              2.31               7.58
 11 to 15 Days After                     19              4.7              1.81              11.91
 16 to 20 Days After                     38              9.4              3.29              23.88
 21 to 25 Days After                     20              5.5              2.85              10.23
 26 to 30 Days After                     8               3.4              1.78               6.39
 More Than 30 Days After                152              52.5            38.31              66.37
 Total                                  340             100.0              ----               ----

We estimated that 52.5 percent (95% CI: 38.31–66.37) of the extension
approvals were processed more than 30 days after the 1-year eligibility date. In
addition, we found that the TLs requested extensions for readjustment
counseling without contacting the clients at three Vet Centers. In lieu of
interviewing the client, TL and/or office support staff utilized information from the
treatment plan to determine if the client needed an extension. The information
was then submitted to the RM for approval. This practice limited the opportunity
for clients to communicate their experiences, perceptions, and concerns related
to contract counseling with Vet Center staff.

Issue 2: Annual Onsite Quality Reviews

Of the 30 Vet Centers reviewed, we found that 9 TLs did not complete an annual
onsite quality review of the respective contract provider during the time period of
March 1, 2011, through April 30, 2012. The compliance rate of 70 percent
(95% CI: 55.95–81.08) is statistically significantly lower than the 90 percent
threshold.

Of the 21 Vet Centers that completed onsite quality reviews, 3 reports noted
areas “Needing Improvement.”           Corrective action plans were developed;
however, target dates were not established for completion in 60 days, as
required, in one of the three reports.

The areas noted as “Needing Improvement” were not entered into the RCSnet
Deficiency Tracking Log for two quality review reports. Therefore, managers
were not able to track and trend the noted deficiencies. Additionally, we found
that the deficiencies had not been resolved at the time of our review.



VA Office of Inspector General                                                                       9
                                                                            Vet Center Contracted Care Program Review


Issue 3: Contract Administration and Oversight

Contractual Requirements

We reviewed contracts to assess for completeness of documentation and to
determine if key terms and conditions were included in accordance with RCS
policy. The RCS compliance rate for having a complete and signed contract was
71 percent (95% CI: 54.67–83.40). Eighteen percent (95% CI: 9.66–30.41) were
missing elements in the statement of work that describe performance and other
requirements such as treatment modalities, number of sessions, eligibility,
referral requirements, and prescribed invoice format.         Eleven percent
(95% CI: 3.30–31.41) of the Vet Centers did not have a contract for counseling
services.

Contract Oversight

We assessed the management and oversight of contracted care based on
compliance with the contract, and reviewed invoice and documentation records.
VHA policy allows for the invoices to be billed individually per session or
aggregated for all sessions performed during the month. These requirements
were not consistently included in the contract.

We evaluated the documentation to determine whether sessions were properly
authorized and invoices were accurate. We found that two of six compliance
measures failed to meet the 90 percent threshold. The documents reviewed
included     VA Authorization    Forms (10-5565b), veteran-signed  service
acknowledgements, contractor invoices, and VA payment records. A summary
of our results can be found in Table 5.
Table 5. Invoiced Session Review


                                                      Invoiced Sessions               Estimated VA Compliance
                                                           (n=1318)              95 Percent Confidence Interval Limits


           Compliance Measure                         Number Compliant       Percent          Lower               Upper

Contract rates match invoice
                                                            1,171             94.3            85.21               97.96
rates
Invoices are calculated accurately                           1,251            96.4            88.35               98.97
VA payments match amounts
                                                             1,144            88.9            76.64               95.15
invoiced
VA Authorization Forms (10-
                                                               915           73.4*            65.37               80.20
5565b) properly signed and dated
10-5565b properly signed and
                                                               611           53.1*            45.54               60.58
dated prior to session date
Veteran signed acknowledgement
                                                             1,073            89.8            80.13               95.05
for receipt of service
*This is statistically significantly lower than the 90 percent benchmark.



VA Office of Inspector General                                                                                            10
                                             Vet Center Contracted Care Program Review


We reviewed VA Authorization Forms (10-5565b) to ensure counseling was
approved by the TL prior to counseling sessions. We found that 73.4 percent
(95% CI: 65.37–80.20) of the authorization forms had a signature and date, and
53.1 percent (95% CI: 45.54–60.58) were signed prior to the session date. The
compliance rates in these categories were significantly below the 90 percent
threshold.

                                   Conclusions
We found that contractors provided the required documents for review and
approval by the TLs prior to the reauthorization of additional sessions in
76.4 percent (95% CI: 56.37–89.01) of the client records. The TLs also
authorized additional counseling sessions with updated treatment plans in 25.8
(95% CI: 12.66–45.46), 31.0 (95% CI: 17.24–49.31), and 30.0 (95% CI: 16.00–
48.97) percent of the records reviewed during each respective quarter.

We found that the extension approval process for 52.5 percent (95% CI: 38.31–
66.37) of the existing clients occurred more than 30 days after the 1-year
eligibility date. We also found that 70.0 percent (95% CI: 55.95–81.08) of the
TLs completed an annual onsite quality review of the respective contract
provider.

We found a 71.0 percent (95% CI: 54.67–83.40) RCS compliance rate for
complete and signed contracts. This was primarily due to missing elements in the
statement of work or the lack of a contract for counseling services. The terms
and conditions of the contracts need to be consistent with VHA policy, and TLs
must maintain a copy of the complete contract with all relevant provisions
prescribed by RCS Guidelines and Instructions. Additionally, we noted that only
73.4 percent (95% CI: 65.37–80.20) of the authorization forms with the required
signature and date and 53.1 percent (95% CI: 45.54–60.58) were signed prior to
the session date.

                                 Recommendations
We recommended that the Under Secretary for Health, in conjunction with the
RCS Chief Officer:

Recommendation 1. Ensure that Team Leaders receive, review, and approve
psychosocial assessments and counseling plans prior to authorizing contracted
counseling services.

Recommendation 2. Ensure that Team Leaders conduct and document client
assessments after 1 year of eligibility for contracted client services.



VA Office of Inspector General                                                     11
                                           Vet Center Contracted Care Program Review


Recommendation 3. Ensure that Team Leaders conduct annual onsite quality
reviews for contractors who participate in the Contract for Fee Program.

Recommendation 4. Ensure that Readjustment Counseling Service uses a
standard template that includes terms and conditions that are consistent with
those in the Readjustment Counseling Service policy.

Recommendation 5. Ensure that Readjustment Counseling Service maintains
and monitors counseling service contracts in accordance with Readjustment
Counseling Service and Veterans Health Administration policy.

Recommendation 6.        Ensure that Team Leaders authorize contracted
counseling services in accordance with Readjustment Counseling Service and
Veterans Health Administration policy.




VA Office of Inspector General                                                   12
                                                 Vet Center Contracted Care Program Review
                                                                                Appendix A

                            Randomized RCS Vet Center Sites

                                                                     RCS
             Station       Vet Center Name
                                                                     Region
             0108V        Manchester Vet Center                         1A
             0116V        New Haven Vet Center                          1A
             0122V        White River Junction Vet Center               1A
             0124V        Rochester Vet Center                          1A
             0202V        Louisville Vet Center                         1B
             0208V        Huntington Vet Center                         1B
             0217V        Richmond Vet Center                           1B
             0425V        Sioux Falls Vet Center                         2
             0433V        Saginaw Vet Center                             2
             0434V        Escanaba Vet Center                            2
             0438V        Pontiac Vet Center                             2
             0346V        Richmond County (Augusta) Vet Center          3A
             0704V        Shreveport Vet Center                         3B
             0705V        Corpus Christi Vet Center                     3B
             0718V        Oklahoma City Vet Center                      3B
             0501V        Cheyenne Vet Center                           4A
             0509V        Billings Vet Center                           4A
             0510V        Spokane Vet Center                            4A
             0514V        Salt Lake Vet Center                          4A
             0519V        Casper Vet Center                             4A
             0520V        Santa Fe Vet Center                           4A
             0522V        Bellingham Vet Center                         4A
             0539V        Kalispell Vet Center                          4A
             0610V        Citrus Heights Vet Center                     4B
             0617V        Portland Vet Center                           4B
             0619V        San Luis Obispo Vet Center                    4B
             0626V        Eugene Vet Center                             4B
             0640V        Salem Vet Center                              4B
             0643V        Ventura Vet Center                            4B
             0649V        Chico Vet Center                              4B




VA Office of Inspector General                                                         13
                                                    Vet Center Contracted Care Program Review
                                                                                   Appendix B
               Under Secretary for Health Comments



               Department of
               Veterans Affairs                            Memorandum

      Date:        July 22, 2013

      From:        Under Secretary for Health (10)

      Subject: Healthcare Inspection – Vet Center Contracted Care
               Program Review

      To:          Assistant Inspector General for Healthcare Inspections (54)

     1. The Veterans Health Administration has revised its action plan
     based on Office of Inspector General’s comments. Attached is the
     revised action plan.

     2. Should you have additional questions, please contact Karen
     Rasmussen, M.D., Acting Director, Management Review Service, at
     (202) 461-6643, or by e-mail at karen.rasmussen@va.gov.


      (original signed by:)
     Robert A. Petzel, M.D.

     Attachment




VA Office of Inspector General                                                            14
                                                 Vet Center Contracted Care Program Review




                         Under Secretary for Health Comments
                         to Office of Inspector General’s Report


       The following Under Secretary for Health’s comments are submitted
       in response to the recommendations in the Office of Inspector
       General’s report:

       OIG Recommendations

       Recommendation 1. We recommended that the Under Secretary
       for Health, in conjunction with the Readjustment Counseling Service
       Chief Officer, ensure that Team Leaders receive, review, and
       approve psychosocial assessments and counseling plans prior to
       authorizing contracted counseling services.

       VHA Comments:

       Concur

       Team Leaders/Contracting Officer Technical Representatives
       (COTR) are required to receive, review, and approve psychosocial
       assessments and counseling plans prior to authorizing ongoing
       contracted counseling services as per VHA Handbook 1500.01,
       Section 7. The specific steps for this requirement are found in the
       Readjustment Counseling Service (RCS) Guidelines and Instructions
       for Contract for Fee Program, Section 4, Paragraphs b, c, d, and e.
       Compliance is monitored through the annual RCS Contract Fee
       Quality Review, Sections 4, Item f, Section 5, Items a-e. The OIG
       Vet Center Contracted Care Program Review estimated that in
       76.4 percent (95% CI: 56.37-89.01) of the Veteran records, the
       contract provider submitted the required documents for review and
       approval by the Team Leader/COTR prior to the reauthorization of
       additional sessions. The RCS compliance rate is significantly lower
       than the 90 percent threshold.

       Additionally, existing Contract for Fee Veteran cases require an
       updated treatment plan for every quarterly re-authorization of
       counseling sessions (up to 15 visits/quarter). The specific steps for
       this requirement are found in the Readjustment Counseling Service
       (RCS) Guidelines and Instructions for Contract for Fee Program,
       Section 4, Paragraphs e, f, and g. Compliance is monitored through


VA Office of Inspector General                                                         15
                                                 Vet Center Contracted Care Program Review



       the annual RCS Contract Fee Quality Review, Sections 4, Item f,
       Section 5, Items e-h. The OIG Vet Center Contracted Care Program
       Review estimated that in 25.8 (95% CI: 12.66–45.46), 31.0 (95% CI:
       17.24–49.31), and 30.0 (95% CI: 16.00–48.97) percent, respectively,
       for the three quarters reviewed the contract provider submitted an
       updated treatment plan for review and approval by the Team
       Leader/COTR prior to the re-authorization of additional sessions.
       The RCS compliance rate is significantly lower than the 90 percent
       threshold.

       Actions to address this recommendation are:

       • All Vet Centers that maintain a Contract for Fee Program will
         receive additional training and guidance by Regional staff to
         specifically address development, submission and approval of
         psychosocial assessments and counseling plans prior to
         authorizing ongoing contracted counseling services for new
         Veterans, and for existing Veterans the review and approval of
         updated treatment plans prior to each quarter (up to 15 visits) of
         services provided. A report identifying the specific date each site
         received its training and guidance to address this
         recommendation will be provided by the end of 2013.

       Status: In progress

       Target Date for Completion: December 31, 2013

       • In order to improve compliance and meet the OIG identified
         90 percent standard RCS will include the following specific
         performance measures in the RCS Team Leader and RCS
         Regional Manager Performance Appraisals:

           o Team Leader Section 5 (Results Driven)

           Critical Element 5.1: Goal/Objective: Initial referral of a Veteran
           to a contract provider will consist of not more than three (3) visits
           for the contract provider to develop the psychosocial assessment
           and written treatment (counseling) plan and obtain Team Leader
           approval. Target/Measurement: In at least 90 percent of
           contracted cases, the contract provider utilizes not more than
           three visits to develop a written psychosocial assessment and



VA Office of Inspector General                                                         16
                                                 Vet Center Contracted Care Program Review



           written treatment plan that is approved by the Team Leader prior
           to authorizing ongoing contracted counseling services.

           Critical Element 5.2: Goal/Objective: For all Contract for Fee
           Veterans, an updated treatment plan will be developed by the
           contractor and approved by the Team Leader/COTR for each
           quarter prior to services being provided (up to 15 visits per
           quarter). Target/Measurement: In at least 90 percent of
           contracted cases, the contract provider submits an updated
           treatment plan and the Team Leader/COTR approves the update
           for the quarter prior to services being provided (up to 15 visits per
           quarter).

           o    Regional Manager Section 5 (Results Driven)

           Critical Element 5.1: Goal/Objective: Regional Manager will
           insure that initial referral of a Veteran to a contract provider will
           consist of not more than three (3) visits for the contract provider
           to develop the psychosocial assessment and written treatment
           (counseling) plan and obtain Team Leader approval.
           Target/Measurement: Regional Manager will ensure that in at
           least 90 percent of contracted cases the contract provider utilizes
           not more than three visits to develop a written psychosocial
           assessment and written treatment plan that is approved by the
           Team Leader prior to authorizing ongoing contracted counseling
           services.

           Critical Element 5.2: Goal/Objective: Regional Manager will
           insure that an updated treatment plan is developed by the
           contractor and approved by the Team Leader/COTR for each
           quarter prior to services being provided (up to 15 visits per
           quarter). Target/Measurement: In at least 90 percent of
           contracted cases the contract provider submits an updated
           treatment plan and the Team Leader/COTR approves the update
           each quarter, prior to services being provided (up to 15 visits per
           quarter).

       Status: In progress

       Target Date for Completion: November 30, 2013




VA Office of Inspector General                                                         17
                                               Vet Center Contracted Care Program Review



       • A quarterly report will be required from each RCS Region
         (beginning with the FY 2013, 4th Quarter) that identifies each new
         contract Veteran, the date authorizing up to three visits, and
         confirmation of the Team Leader approval prior to authorizing
         ongoing counseling services beyond three visits. The quarterly
         report will be required until the 90 percent compliance standard is
         reached; RCS’s annual reports will continue to track this
         requirement.

       Status: In progress

       Target Date for Completion: January 15, 2014

       Recommendation 2. We recommended that the Under Secretary
       for Health, in conjunction with the Readjustment Counseling Service
       Chief Officer, ensure that Team Leaders conduct and document
       client assessments after 1 year of eligibility for contracted client
       services.

       VHA Comments:

       Concur

       Team Leaders/Contracting Officer Technical Representatives (COTR)
       are required to conduct and document updated Veteran assessments
       for all Veterans that exceed the authorized one year of contracted
       services as per VHA Handbook 1500.01, Section 7. The specific
       steps for this requirement are found in the Readjustment Counseling
       Service (RCS) Guidelines and Instructions for Contract for Fee
       Program, Section 4, Paragraph i. Compliance is monitored through
       the annual Readjustment Counseling Service (RCS) Contract Fee
       Quality Review, Section 5, Items g and h. The OIG Vet Center
       Contracted Care Program Review estimated that 52.5 percent
       (95% CI: 38.31 – 66.37) of the beyond 1-year extensions took place
       more than 30 days after the 1-year date. This results in an RCS
       compliance rate of 47.5 percent which is significantly lower than the
       90 percent threshold.

       Actions to address this recommendation are:

       • All Vet Centers that maintain a Contract for Fee Program will
         receive additional training and guidance by Regional staff to
         specifically address documenting Veteran assessments and


VA Office of Inspector General                                                       18
                                                 Vet Center Contracted Care Program Review



           regional approval of contracted services beyond 1-year. A report
           identifying the specific date each site received its training and
           guidance to address this recommendation will be provided by the
           end of calendar year 2013.

       Status: In progress

       Target Date for Completion: December 31, 2013

       • In order to improve compliance and meet the OIG identified
         90 percent standard, RCS will include the following specific
         performance measures in the RCS Team Leader and RCS
         Regional Manager Performance Appraisals for the FY 2014
         performance cycle:

           o Team Leader Section 5 (Results Driven)

           Critical Element 5.3: Goal/Objective: In order to extend a
           Contract for Fee Veteran’s eligibility for services beyond 1-year,
           Team Leader must interview the Veteran (in person or by
           telephone) to conduct an updated psychosocial assessment that
           demonstrates ongoing clinical need for contracted services.
           Each case must be reviewed and approved by the Regional
           Manager or designee and documented in the Veteran’s file.
           Target/Measurement: Team Leader will ensure that in at least
           90 percent of contracted cases exceeding the initial 1-year
           eligibility, the Veteran is interviewed, need for ongoing services is
           determined and approved, and actions are documented in the
           Veteran’s file within 30 days of the 1-year anniversary date.

           o Regional Manager Section 5 (Results Driven)

           Critical Element 5.3: Goal/Objective: Regional Manager will
           review and approve all contracted cases that exceed the initial
           1-year eligibility. Target/Measurement: Regional Manager will
           ensure that in at least 90 percent of contracted cases exceeding
           the initial 1-year eligibility, the Veteran is interviewed, need for
           ongoing services is determined and approved, and actions are
           documented in the Veteran’s file within 30 days of the 1-year
           anniversary date.

       Status: In progress


VA Office of Inspector General                                                         19
                                                 Vet Center Contracted Care Program Review




       Target Date for Completion: November 30, 2013

       • A quarterly report will be required from each RCS Regional
         Manager (beginning with the FY 2013, 4th Quarter) that identifies
         each contract Veteran that received services beyond 1-year, their
         yearly anniversary date, and the date and confirmation of the
         approval of the contracted services extension. The quarterly
         report will be required until the 90 percent compliance standard is
         reached; RCS’s annual reports will continue to track this
         requirement.

       Status: In progress

       Target Date for Completion: January 15, 2014

       Recommendation 3. We recommended that the Under Secretary
       for Health, in conjunction with the Readjustment Counseling Service
       Chief Officer, ensure that Team Leaders conduct annual onsite
       quality reviews for contractors who participate in the Contract for Fee
       Program.

       VHA Comments:

       Concur

       Team Leaders/Contracting Officer Technical Representatives
       (COTR) are required to conduct an annual on-site quality review as
       per VHA Handbook 1500.01, Section 7. The specific steps for this
       requirement are found in the Readjustment Counseling Service
       (RCS) Guidelines and Instructions for Contract for Fee Program,
       Section 6, Paragraph b, Item 4. Compliance is monitored through
       the annual Readjustment Counseling Service (RCS) Contract Fee
       Quality Review, Section 8, Item b. The OIG Vet Center Contracted
       Care Program Review estimated that 70 percent (95% CI: 55.95 –
       81.08) of Team Leaders conducted an on-site quality review. The
       RCS compliance rate is significantly lower than the 90 percent
       threshold.

       All Vet Centers with an active Contract for Fee program will receive
       an on-site quality review in FY 2013. In addition, all deficiencies will
       be entered into the RCS Net Deficiency Tracking System with the
       established 60 day remediation period.


VA Office of Inspector General                                                         20
                                              Vet Center Contracted Care Program Review




       Status: In progress

       Target Date for Completion: September 30, 2013

       Recommendation 4. We recommended that the Under Secretary
       for Health, in conjunction with the Readjustment Counseling Service
       Chief Officer, ensure that Readjustment Counseling Service uses a
       standard template that includes terms and conditions that are
       consistent with those in the Readjustment Counseling Service policy.

       VHA Comments:

       Concur

       The specific steps for initiating and awarding an RCS contract are
       found in the Readjustment Counseling Service (RCS) Guidelines
       and Instructions for Contract for Fee Program, Section 1.
       Compliance is monitored through the annual Readjustment
       Counseling Service (RCS) Contract Fee Quality Review, Section 3,
       Item a. The OIG Vet Center Contracted Care Program Review
       estimated that 71 percent (95% CI: 54.67 – 83.40) of contracts were
       complete and consistent with RCS policy and available on-site at
       each Vet Center. The RCS compliance rate is significantly lower
       than the 90 percent threshold.

       Actions to address this recommendation are:

       • A complete signed copy of all RCS contracts will be reviewed and
         maintained at each Vet Center. In addition, the RCS Regional
         Office will maintain a complete and signed copy of all contracts
         within their region. This will be documented by the Regional
         Managers and a national report will be submitted when complete.

       Status: In progress

       Target Date for Completion: January 1, 2014

       • A standardized and consistent Performance Based Statement of
         Work (PBSW) will be developed and implemented for all new and
         renewed contracts.

       Status: In progress


VA Office of Inspector General                                                      21
                                              Vet Center Contracted Care Program Review




       Target Date for Completion: January 1, 2014

       Recommendation 5. We recommended that the Under Secretary
       for Health, in conjunction with the Readjustment Counseling Service
       Chief Officer, ensure that Readjustment Counseling Service
       maintains and monitors counseling service contracts in accordance
       with Readjustment Counseling Service and Veterans Health
       Administration policy.

       VHA Comments:

       Concur

       The specific steps for monitoring RCS contracts are found in the
       RCS Guidelines and Instructions for Contract for Fee Program,
       Section 1. Compliance is monitored through the annual RCS
       Contract Fee Quality Review, Section 3, Item a.

       A standardized and consistent PBSW will be developed and
       implemented for all new and renewed contracts. Each contract will
       be proactively reviewed annually with an action plan including the
       implementation of the standard PBSW for all contracts as they are
       initiated or renewed.

       Status: In progress

       Target date for completion: January 1, 2014

       Recommendation 6. We recommended that the Under Secretary
       for Health, in conjunction with the Readjustment Counseling Service
       Chief Officer, ensure that Team Leaders authorize contracted
       counseling services in accordance with Readjustment Counseling
       Service and Veterans Health Administration policy.

       VHA Comments:

       Concur

       Team Leaders/Contracting Officer Technical Representatives
       (COTR) are required to sign and date authorizations for contracted
       counseling (VA 10-5565b) prior to the counseling being provided by
       contractor as per VHA Handbook 1500.01, Section 7. The specific
       steps for this requirement are found in the Readjustment Counseling


VA Office of Inspector General                                                      22
                                                Vet Center Contracted Care Program Review



       Service (RCS) Guidelines and Instructions for Contract for Fee
       Program, Section 4, Paragraph a. Compliance is monitored through
       the annual Readjustment Counseling Service (RCS) Contract Fee
       Quality Review, Section 4, Item e. The OIG Vet Center Contracted
       Care Program Review estimated that 73.4 percent (95% CI: 65.37 –
       80.20) of the authorization forms had appropriate signatures and
       that 53.1 percent (95% CI: 45.54 – 60.58) were signed prior to the
       session date. The RCS compliance rate is significantly lower than
       the 90 percent threshold.

       Actions to address this recommendation are:

       • All Vet Centers that maintain a Contract for Fee Program will
         receive additional training and guidance by Regional staff to
         specifically address the appropriate documentation authorizing
         contracted services for Veterans. A report identifying the specific
         date each site received its training and guidance to address this
         recommendation will be provided by the end of calendar year
         2013.

       Status: In progress

       Target Date for Completion: December 31, 2013

       • In order to improve compliance and meet the OIG identified
         90 percent standard, RCS will include the following specific
         performance measures in the RCS Team Leader and RCS
         Regional Manager Performance Appraisals for the FY 2014
         performance cycle:

           o Team Leader Section 5 (Results Driven)

               Critical Element 5.4: Goal/Objective:      Authorizations for
               contracted counseling (VA 10-5565b) will be signed and dated
               by Team Leader prior to the session(s) authorized.
               Target/Measurement:          Team Leader will ensure that
               90 percent of all authorizations (VA 10-5565b) are signed and
               dated prior to the session(s) authorized.

           o Regional Manager Section 5 (Results Driven)




VA Office of Inspector General                                                        23
                                                Vet Center Contracted Care Program Review



               Critical Element 5.4: Goal/Objective:      Authorizations for
               contracted counseling (VA 10-5565b) will be signed and dated
               by Team Leader prior to the session(s) authorized.
               Target/Measurement: Regional Manager will ensure that 90
               percent of all authorizations (VA 10-5565b) are signed and
               dated by the Team Leader prior to the session(s) authorized.

       Status: In progress

       Target Date for Completion: November 30, 2013

       • A quarterly report will be required from each RCS Region
         (beginning with the FY 2013, 4th Quarter) that identifies each
         contract Veteran authorization and documentation of the
         appropriate signatures and dates. The quarterly report will be
         required until the 90 percent compliance standard is reached;
         RCS’s annual reports will continue to track this requirement.

       Status: In progress

       Target Date for Completion: January 15, 2014




VA Office of Inspector General                                                        24
                                                    Vet Center Contracted Care Program Review
                                                                                   Appendix C


            OIG Contact and Staff Acknowledgments

OIG Contact                      For more information about this report, please contact
                                 the Office of Inspector General at (202) 461-4720.
Acknowledgments                  Annette Acosta, MN, RN
                                 Bruce Barnes
                                 Marisa Casado, RN, MSA
                                 Lin Clegg, Ph.D.
                                 Darlene Conde-Nadeau, ARNP, MSN
                                 Myra Conway, RN
                                 Katharine Foster, RN
                                 Nathan Fong, CPA
                                 Cynthia Gallegos
                                 Zhana Johnson, CPA
                                 Sandra Khan, RN
                                 Murray Leigh, CPA
                                 Tishanna, McCutchen, ARNP, MSN
                                 Judy Montano, MS
                                 David Persaud, RN, MSN
                                 Jennifer Reed, RN, MSHI
                                 Thomas Seluzicki, CPA
                                 Michael Shepherd, MD
                                 Patrick Smith, MStat
                                 Marilyn Stones, BS
                                 Mary Toy, RN, MSN
                                 Joanne Wasko, LCSW
                                 Sonia Whig, MS, LDN
                                 Maureen Regan, Counselor to the Inspector General




VA Office of Inspector General                                                            25
                                              Vet Center Contracted Care Program Review
                                                                             Appendix D


                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Under Secretary for Health (10)
Readjustment Counseling Service Chief Officer (0015)
Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs,
 and Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs,
 and Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget

This report is available at www.va.gov/oig.




VA Office of Inspector General                                                      26
